No. 19A996

IN THE
SUPREME COURT OF THE UNITED STATES

 

EDWARD THOMAS, WARDEN,
CENTRAL PRISON, RALEIGH, NORTH CAROLINA

PETITIONER,
v.
WILLIAM LEROY BARNES,
RESPONDENT.

 

CERTIFICATE OF COMPLIANCE
[CAPITAL CASE]

 

I, Jonathan P. Babb, Special Deputy Attorney General for the State of North
Carolina and a member of the bar of this Court, hereby certify that the State of North
Carolina’s Petition for Writ of Certiorari is in compliance with Rule 33 in that it is
printed in twelve-point Century Schoolbook font and it neither exceeds 40 pages, nor
does the body to the petition, including footnotes and citations, contain more than
9,000 words as indicated by Microsoft Word, the program used to prepare the brief.

The Petition for Writ of Certiorari contains 4,521 words.
This the 15th day of May, 2020.

   

Jonathan P. Babb
&pecial Deputy Attorney General
*Counsel of Record

North Carolina Department of Justice
Post Office Box 629

Raleigh, North Carolina 27602
Telephone: (919) 716-6500
jbabb@ncdoj.gov
